WAIVER

Supreme Court, U.S.
FILED

APR 1 5 2021

SUPREME COURT OF THE UNITED STATES
No.

OFFICE OF THE CLERK

20-1353
Tekle Abebe, et al.

Allen Thomas
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Girma Abebe Tekle; Aster Kifle Woldmariam

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

C)

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Cler Office, 1 First treet, NE, Washington, D.C. 20543).

Signature:
Date:
(Type or print) Name Shelby G. Hall

Ms.

0 Mrs.

Firm

Thompson, Coe, Cousins & Irons, LLP

Address

700 N. Pearl Street, 25th Floor

City & State

Dallas, TX

Phone

214.871.8200

0 Miss

Zip 75201
Email shall@thompsoncoe.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lette
10

WED

Allen Thomas, 2004 High Hill Blvd., Dallas, Texas 75203
CC:

APR 2 7 12021
OFFICE OF T E CLERK
UPREME COURT U.S.

USPS CERTIFIED MAIL

Thompson Coe
Plaza of the Americas
700 North Pearl Street 25TH Fl
Dallas TX 75201

11111 111111111

1111

9214 8901 9403 8337 7536 95

SUPREME COURT OF THE UNITED STATES
1 1ST ST NE
WASHINGTON DC 20543-0001

Fold Here

Fold Here

10257.022
Sullivan, Joni

RECEIVED
APR 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

